No. 20-236

trhe

Oupretue Court of tbe ?Anita' Otateiv
•
JERRY W WELLS,
Petitioner,
V.
ROBBIN NELSON, ROBERT A. SHARP JR.,
HEATHER ANNE GREENE SHARP,
Respondents.

•
On Petition For A Writ Of Certiorari
To The Kentucky Supreme Court
•
RESPONDENTS' BRIEF IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

•
ROBBIN NELSON (pro se)
PO Box 159175
Nashville, TN 37215
615-509-5557
bnalnc@aol.com
September 25, 2020

RECEIVED
SEP 3 fl 2020
THE CCERK
SUPREMECOURT
U.S.

1

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES

ii

INTRODUCTION

1

ARGUMENTS

3

ADOPTIONS ARE EXCLUDED UNDER
3
THE UCCJEA
5
PLAIN LANGUAGE RULE
STATUTORY INTERPRETATION

8

THE EXCLUSION OF ADOPTIONS UNDER THE UCCJEA IS A PROCEDURAL
10
JURISDICTION RULE
11
CIRCUIT SPLITS
CONCLUSION

14

11

TABLE OF AUTHORITIES
Page
CASES
American Tobacco Co. v. Patterson, 456 U.S. 63
(1982)

9

Amy v. Watertown, 130 U.S. 320, 9 Sup. Ct. 537,
32 L. Ed. 953 (1889)

8

Arden v. Kozawa, 466 S.W.3d 758 (Tenn. 2015)

7

Ardestani v. Ins., 502 U.S. 129 (1991)

9

Bryant v. HCA Health Servs. Of N Tenn., Inc., 15
S.W.3d 804 (Tenn. 2000)

7

Chung Fook v. White, 264 U.S. 443 (1924)

8

Commonwealth v. Crum, 250 S.W.3d 347 (Ky.
App. 2008)

6

Commonwealth v. Harrelson, 14 S.W.3d 541 (Ky.
2000)

6

Commonwealth v. Phon, 17 S.W.3d 106 (Ky.
2000)

6

Commonwealth v. Plowman, 86 S.W.3d 47 (Ky.
2002)

6

Consumer Product Safety Comm'n v. GTE Sylvania, Inc., 447 U.S. 102 (1980)

9

Corona Coal Co. v. United States, 263 U.S. 537,
44 Sup. Ct. 156, 66 L. Ed.
, decided January 7, 1924

8

Davis-Kidd Booksellers, Inc. v. McWherter, 866
S.W.2d 520 (Tenn. 1993)

7

Ex parte Leong Shee (D. C. 1924) 275 Fed. 364

8

111

TABLE OF AUTHORITIES — Continued
Page
Griffin v. City of Bowling Green, 458 S.W.2d 456
(Ky. 1970)

6

Hall v. Hospitality Resources, Inc., 276 S.W.3d
775 (Ky. 2008)

6

Henderson v. Shinseki, 131 S. Ct. 1197 (2011)
Houghton v. Aramark Educ. Res., Inc., 90 S.W.3d
676 (Tenn. 2002)

10
7

In re Adoption of Baby E.Z., (Utah 2011)

12

In re Adoption of H.C.H., 304 P.3d 1271 (Kan.
2013)

12

In re Adoption of KC., 203 Cal. Rptr. 3d 110 (Ct.
App. 2016)

12

In re D.C.M. Applying for Intrafamily Adoption,
La. App. 22 Cir L. (2011)

13

In re Sara Ashton McK. v. Bode M., 974 N.Y. S.
2d 434 (App Div. 2014)

13

INS v. Cardoza-Fonseca, 480 U.S. 421 (1987)

9

Lind v. Beaman Dodge, Inc., 356 S.W.3d 889
(Tenn. 2011)

7

Mills v. Fulmarque, Inc., 360 S.W.3d 362 (Tenn.
2012)

7

Pena v. Green Tree Servicing, LLC, NPO, COA
3/11/2011

6

Richards v. United States, 369 U.S. 1 (1962)

9

Rubin v. United States, 449 U.S. 424 (1981)

9

Schroader v. Atkins, 657 S.W.2d 945 (Ky. 1983)

6

iv
TABLE OF AUTHORITIES — Continued
Page
State v. McCoy, 459 S.W.3d 1 (Tenn. 2014)

6

State v. Pope, 427 S.W.3d 363 (Tenn. 2013)

7

St. Louis, Iron Mountain, etc., Railway Co. v.
Taylor, 210 U.S. 281, 28 Sup. Ct. 616, 52 L. Ed.
1061 (1908)

8

United States v. First National Bank, 234 U.S.
245, 34 Sup. Ct. 846, 58 L. Ed. 1298 (1914)

8

United States v. James, 478 U.S. 597 (1986)
(quoting Blue Chip Stamps v. Manor Drug
Stores, 421 U.S. 723 (1975) (Powell, J., concurring)

9

Williams v. Biddle, 299 S.W.3d 284 (Ky. App.
2, 13, 14
2009)
STATUTES
PKPA — Parental Kidnapping Prevention Act of
4, 5, 11
1980, 28 U.S.C. § 1738A
Restatement (Second) Conflict of Laws § 2 (Am.
Law Inst. 1971)

4

OTHER AUTHORITIES
Hoff, P.S. 2001. The Uniform Child-Custody Jurisdiction and Enforcement Act. U.S. Department of Justice Office of Juvenile Justice and
Delinquency Prevention (OJJDP). December

5

ICARA — International Child Abduction Remedies Act, 22 U.S.C. § 9001-9011

4

TABLE OF AUTHORITIES — Continued
Page
ICPC — Interstate Compact for the Placement of
Children (Various State Citations)

4

The Hague Convention — International Child
Abduction (The Hague Convention) 51 Fed.
Reg. 10,494 et seq. (1986)

4

The Uniform Adoption Act, (UAA), 9 ULA, Part
I (Supp. 1995)

3

Uniform Child Custody Jurisdiction Act,
3, 11
(UCCJA), 9(1A) U.L.A. 271 (1999)
Uniform Child Custody Jurisdiction and Enforcement Act, (UCCJEA) (1997), 9(1A) U.L.A.
passim
657 (1999)
VAWA — Violence Against Women Act, 18 U.S.C.
2265 (2000)

4

1
INTRODUCTION
Respondent files this pro se brief in support of petitioner's brief. Respondent agrees there are multiple
arbitrary and capricious orders, which constitute an
abuse of discretion within the various levels of the
Kentucky judiciary throughout this case, including but
not limited to, denial of due process rights based on the
failure of acknowledgement by the judiciary of petitioner's de facto standing and award of custody previously granted by the lower court in May 2014,
(Petitioner's App. 66). Respondent accedes petitioner's
position that egregious, bias actions manifested
throughout the case, coupled with numerous appearances of ex-parte communication prior to the issuance
of certain orders, (Petitioner's Apps. 18 & 20). These arbitrary and capricious orders, abuse of discretion, overt
bias, and questionable communications within the judiciary itself coupled with the actions and communications between a lower court judge assisting a favored
attorney, can only be corrected by the exercise of this
Court's supervisory power; however, the question now
before the Court is not to decide whether petitioner
will prevail on the specific merits of his petition at this
point.
The Court must decide at this stage whether to
grant review of this case as it addresses a much larger
societal issue which is the inconsistent interpretation
of the UCCJEA during an adoption proceeding resulting in circuit orders not made in substantial conformity with the UCCJEA act itself, blatant disregard and
failure to effectuate the plain language and intent of

2
the respective legislatures, and conflicts of law created
by decades of inconsistent precedent previously established within the circuits.
The attempts by some circuits to distinguish adoptions from a mere change in custody where the UCCJEA
does not apply and where federal law, specifically the
PKPA allows a modification from any original custody
order when adoption comes into play, demonstrates the
limited scope of the Kentucky Supreme Court's erroneous holding in this case. These inconsistent interpretations among the circuits open the door for collateral
attacks when multiple jurisdictions are involved,
causes jurisdictional conflict as exemplified in this
case, and are sufficient to establish violations of both
federal law and the procedural jurisdiction of the
UCCJEA which unambiguously excludes adoptions
(UCCJEA §103).
Respondent relies on information not presented
by Petitioner including a review of the commentary by
the drafters of the UCCJEA Act regarding its application to adoptions, the Commonwealth of Kentucky and
State of Tennessee statutory interpretation case law,
US Supreme Court opinions addressing plain language, exclusion of adoptions pursuant to the UCCJEA
Act as a procedural jurisdiction issue, and inconsistent
precedent opinions issued by various circuits which
are not addressed in the Williams v. Biddle opinion of
the Kentucky Court of Appeals regarding the application of the UCCJEA during an adoption.
♦

3
ARGUMENTS
I. ADOPTIONS ARE EXCLUDED UNDER
THE UCCJEA
The model UCCJEA1, drafted in 1997 as a replacement to the 1968 UCCJA "includes a sweeping definition that, with the exception of adoption, includes
virtually all cases that can involve custody of or visitation with a child as a custody determination."2 The
model UCCJEA expressly and unambiguously states
"this Act does not govern an adoption proceeding . . . ".3
Adoption is excepted from the UCCJEA not as an oversight; rather, it was intentional and deliberate as it is
a specialized area covered by other similar provisions
of the UAA, for which Vermont, at the point of this
writing, is the only state to have partially enacted. The
delay to accept the UAA by other states is probably
due to the complexity of adoptions, which has different
jurisdictional considerations for interstate adoptions,
is not based on common law but rather requires states
to strictly construe statues, have subject matter jurisdiction which cannot be conferred by consent or action
of the parties, and conform with the numerous federal
laws such as the constitutional rights of the natural
1 Uniform Child Custody Jurisdiction and Enforcement Act,
(UCCJEA) (1997), 9(1A) U.L.A. 657 (1999). The UCCJEA has
been adopted by all states, the federal district and US Territories
except for Massachusetts and Puerto Rico.
2 Uniform Child Custody Jurisdiction Act, Prefatory Note. Pg
3
Section 103, Uniform Child Custody Jurisdiction and Enforcement Act, (UCCJEA).

4
parents, rights of the adoptive parents, rights of the
child(ren) at the center of an adoption, the Supremacy
Clause of the PKPA,4 the VAWA,5 the ICARA,6 the
ICPC,7 the Hague Convention,8 or the Restatement
(Second) of Conflict of Laws Sec. 78 which broadly provides that "a state court has power to exercise jurisdiction to grant an adoption it if is in the state of domicile
of either the adopted child or adoptive parent and the
adoptive parent and either the adopted child or the
child's legal custodian is subject to the court's personal
jurisdiction." Given the numerous laws which must be
reconciled during an adoption proceeding, and the additional issues currently presenting before the circuits
including international, de facto, step-parent, same
sex, assisted reproductive technology adoptions, there
are compelling reasons that suggest all adoptions must
be evaluated on a case by case basis specifically as they
are not subject to the UCCJEA.
Patricia Hoff, legal consultant and advisor to the
drafting committee of the UCCJEA on behalf of the
ABA Center on Children and the Law, writes in the

4 PKPA — Parental Kidnapping Prevention Act of 1980, 28
U.S.C. § 1738A
5 VAWA — Violence Against Women Act, 18 U.S.C. 2265,
2266 (2000)
6 ICARA — International Child Abduction Remedies Act,
' ICPC — Interstate Compact for the Placement of Children,
8 The Hague Convention — International Child Abduction
(The Hague Convention) 51 Fed. Reg. 10,494 et seq. (1986)

5
December 2001 Bulletin of the Office of Juvenile Justice and Delinquency Prevention (OJJDP)9:
Identifying the specific proceedings to which
the UCCJEA is applicable clarifies when
courts must conform to the UCCJEA, which
should minimize the likelihood that more
than one State will take jurisdiction over the
same matter.
Hoff's statements are clear. The UCCJEA is only applicable in specific proceedings, there is no provision
within the UCCJEA Act which allows a court to apply
the UCCJEA during an adoption, and the UCCJEA
is preempted by the PKPA and all other federal law.
II. PLAIN LANGUAGE RULE
The verbiage of the sentence "this Act does not
govern an adoption proceeding . . . " is written in plain
language and does not require statutory interpretation. There is nothing in the statement that makes an
exception or permits the statement to be taken out of
context, manipulated, twisted, or applied to an adoption in contravention of the Act itself and/or in contravention of the codified statutes of the respective states,
federal district or territories.

9 Hoff, P.S. 2001. The Uniform Child-Custody Jurisdiction and
Enforcement Act. U.S. Department of Justice Office of Juvenile
Justice and Delinquency Prevention (OJJDP). pg 4-5.

6
The Kentucky Court of Appeals addressed this
issue at length writing as follows: From Pena v. Green
Tree Servicing, LLC, NPO, COA 3/11/2011
The seminal duty of a court in construing a
statute is to effectuate the intent of the legislature. Commonwealth v. Plowman, 86 S.W.3d
47, 49 (Ky. 2002) (citing Commonwealth v.
Harrelson, 14 S.W.3d 541 (Ky. 2000)). If a statute is clear and unambiguously expresses the
legislature's intent, it must be applied as written. Hall v. Hospitality Resources, Inc., 276
S.W.3d 775, 784 (Ky. 2008); see also Griffin v.
City of Bowling Green, 458 S.W.2d 456, 457
(Ky. 1970). Furthermore, when a word used in
a statute is ascribed a particular meaning,
courts must accept such even if the statutory
definition differs from the ordinary meaning
of the word. Schroader v. Atkins, 657 S.W.2d
945, 947 (Ky. 1983). Finally, [w]hen there appears to be a conflict between two statutes, . . .
a general rule of statutory construction mandates that the specific provision take precedence over the general. Commonwealth v.
Crum, 250 S.W.3d 347, 351 (Ky. App. 2008)
(quoting Commonwealth v. Phon, 17 S.W.3d
106, 107-8 (Ky. 2000)).
Tennessee addresses the issue of "statutory and
constitutional interpretation as questions of law," State
v. McCoy, 459 S.W.3d 1, 8 (Tenn. 2014):
In construing statutes, it is our duty to adopt
a construction which will sustain a statute
and avoid constitutional conflict if any reasonable construction exists that satisfies the

7
requirement of the Constitution. Davis-Kidd
Booksellers, Inc. v. McWherter, 866 S.W.2d 520,
529 (Tenn. 1993) (citations omitted). Our primary objective in statutory interpretation is
to carry out legislative intent without broadening or restricting the statute beyond its intended scope. Houghton v. Aramark Educ.
Res., Inc., 90 S.W.3d 676, 678 (Tenn. 2002) (citations omitted). We first look to the statute's
text, giving the words their natural and ordinary meaning in the context in which they appear and in light of the statute's general
purpose. Mills v. Fulmarque, Inc., 360 S.W.3d
362, 368 (Tenn. 2012). If a statute is clear, we
apply the plain meaning without complicating
the task and enforce the statute as written.
Lind v. Beaman Dodge, Inc., 356 S.W.3d 889,
895 (Tenn. 2011). If a statute is ambiguous, we
may consider the broader statutory scheme,
legislative history, and other sources in discerning the legislative intent. Arden v.
Kozawa, 466 S.W.3d 758, 764 (Tenn. 2015).
The statutory provision at issue is succinctly stated,
not ambiguous, (Bryant v. HCA Health Servs. Of N
Tenn., Inc., 15 S.W.3d 804, 809 (Tenn. 2000)), and is not
susceptible to more than one meaning; therefore, in ascertaining the legislative intent, one need not consider
the entire statutory framework or look any further
than the statement itself. Even if one considered the
entire UCCJEA Act under the doctrine of in pari materia requiring the interpretation together, the framers
clearly acted "purposely in the subject included or
excluded.") (quoting State v. Pope, 427 S.W.3d 363, 368

8
(Tenn. 2013). Accordingly, there should be no deviation
from the plain language requirements of the UCCJEA
Act itself or codified state statutes which require the
exclusion of adoptions.
III. STATUTORY INTERPRETATION
The US Supreme Court, in Chung Fook v. White
Commissar of Immigration, 264 U.S. 443 (1924) focused on the plain meaning rule when a native born
citizen of the United States was denied a petition for a
writ of habeas corpus for his wife, an alien Chinese
woman ineligible for naturalization, based on a statute
for naturalized citizens, despite the doctrine of absurdity. The court writes:
To the same effect, see Ex parte Leong Shee
(D. C.) 275 Fed. 364. We are inclined to agree
with this view; but, in any event, the statute
plainly relates only to the wife or children of
a naturalized citizen and we cannot interpolate the words 'native-born citizen' without
usurping the legislative function. Corona Coal
Co. v. United States, 263 U.S. 537, 44 Sup. Ct.
, decided January 7, 1924;
156, 66 L. Ed.
United States v. First National Bank, 234 U.S.
245, 259-260, 34 Sup. Ct. 846, 58 L. Ed. 1298;
St. Louis, Iron Mountain, etc., Railway Co. v.
Taylor, 210 U.S. 281, 295, 28 Sup. Ct. 616, 52
L. Ed. 1061; Amy v. Watertown, 130 U.S. 320,
327, 9 Sup. Ct. 537, 32 L. Ed. 953. The words
of the statute being clear, if it unjustly discriminates against the native-born citizen, or
is cruel and inhuman in its results, as

9
forcefully contended, the remedy lies with
Congress and not with the courts. Their duty
is simply to enforce the law as it is written,
unless clearly unconstitutional.
In Ardestani v. Ins., 502 U.S. 129 (1991), a case dealing
with administrative deportation proceedings as adversary adjudications "under section 554" requesting a
waiver of sovereign immunity with award of attorney
fees and cost, the U.S. Supreme Court provided additional guidance regarding plain language requirements:
The starting point in statutory interpretation
is the language [of the statute] itself. United
States v. James, 478 U.S. 597, 604 (1986)
(quoting Blue Chip Stamps v. Manor Drug
Stores, 421 U.S. 723, 756 (1975) (Powell, J.,
concurring)). The strong presumption that the
plain language of the statute expresses congressional intent is rebutted only in rare and
exceptional circumstances, Rubin v. United
States, 449 U.S. 424, 430 (1981), when a contrary legislative [502 U.S. 129, 136] intent is
clearly expressed. INS v. Cardoza-Fonseca,
480 U.S. 421, 432, n. 12 (1987); Consumer
Product Safety Comm'n v. GTE Sylvania, Inc.,
447 U.S. 102, 108 (1980). In this case, the legislative history cannot overcome the strong
presumption that the legislative purpose is
expressed by the ordinary meaning of the
words used. American Tobacco Co. v. Patterson, 456 U.S. 63, 68 (1982) (quoting Richards
v. United States, 369 U.S. 1, 9 (1962).

10
The application of the UCCJEA Act to an adoption proceeding, in contravention of the Act itself and that of
its codified version within the respective state statutes,
is not only erroneous but a blatant disregard of the
plain language requirements and statutory interpretation as required by the respective state legislatures as
well as the directives previously established by the
U.S. Supreme Court. This action by the circuits who
engage in such discourse nullifies the legislative intent
for which they are sworn to enforce and pushes a society towards an unpredictable, ungoverned Hobbesian
state.
IV. THE EXCLUSION OF ADOPTIONS UNDER
THE UCCJEA IS A PROCEDURAL JURISDICTION RULE
Senior Attorney, Paul Ferrer, from the National
Legal Research Group, wrote the following:
The U.S. Supreme Court has been called on a
number of times in recent years to decide
whether a procedural rule is jurisdictional.
See Henderson v. Shinseki, 131 S. Ct. 1197,
1202 (2011). The question is important because once a procedural rule is labeled jurisdictional, the court has no power even to
consider granting relief, for any reason, from
a failure to comply strictly with the rule's requirements. '°
1° Public Law Legal Research Blog CIVIL PROCEDURE:
When Is a Procedural Rule "Jurisdictional"? The Lawletter Vol 36
No 10 Paul Ferrer, Senior Attorney, National Legal Research

11
Because the UCCJEA is a uniform law, strict compliance with the UCCJEA Act itself and the applicable
procedural principles which are codified in the state
statutes is a requirement before a court can assert
authority to proceed in a specific case at a defined
time. The UCCJEA is essentially a procedural jurisdiction rule; therefore, the application of the UCCJEA
during an adoption proceeding when it is expressly
and unambiguously excluded is a conspicuous error
and invalidates any decisions rendered in contravention of same.
V.

CIRCUIT SPLITS

Within the fifty circuits, the federal district of D.C.
and the U.S. territories, only two jurisdictions have
not yet adopted the UCCJEA. In Massachusetts, the
UCCJA, as modified by the PKPA, controls. In Puerto
Rico, neither the UCCJA nor the UCCJEA have been
adopted, thus only the PKPA controls. In the remaining jurisdictions some states have eliminated adoption
from the respective codified UCCJEA statutes; specifically, Florida, Iowa, Kansas, Maryland, New Jersey,
Oregon, creating separate statutes to deal directly
with adoption. Vermont is the only state to partially
enact the Uniform Adoption Act. The remainder of
the jurisdictions have codified the UCCJEA within
their own statutes, and all exclude adoptions under

Group Read more at: Retrieved 9-21-2020, https://www.nlrg.com/
public-law-legal-research/bid/76859/CIVIL-PROCEDURE-WhenIs-a-Procedural-Rule-Jurisdictional

12
the UCCJEA. Despite this exclusion, the circuits have
varied interpretations of the application of the
UCCJEA to adoptions:
The Utah Supreme Court decided that adoptions constitute a custody proceeding for the
purposes of the PKPA and the PKPA did not
limit the subject matter jurisdiction of state
court. The court found that the PKPA, and
only the PKPA by its plain language, applies
to adoption proceedings, In re Adoption of
Baby E.Z., (Utah 2011).
California determined that the UCCJEA did
not apply to adoption proceedings when a
mother and her husband petitioned to terminate the father's parental rights for a stepparent adoption, In re Adoption of KC., 203 Cal.
Rptr. 3d 110 (Ct. App. 2016).
The Kansas Supreme Court found that the jurisdiction provision of the adoption statute, as
a specific statute, rather than the UCCJEA,
controlled the determination of jurisdiction in
adoption proceedings where an adoption or
child-custody proceeding involving the child is
pending in another state or where the court of
another state has already made a child custody determination, In re Adoption of H.C.H.,
304 P.3d 1271 (Kan. 2013).
A state can become a newborn child's home
state almost as soon as the child is born. New
York found it was the home state based on a
literal construction of the statute since the
mother gave birth February 23, 2013, and

13
lived there continuously until she filed for custody two days later. Even though the father
had filed a paternity petition in November,
2012, the child had not been born yet so California did not have jurisdiction "substantially
in conformity" with the UCCJEA, In re Sara
Ashton McK. v. Bode M., 974 N.Y. S. 2d 434
(App Div. 2014).
A Louisiana Adoption Case for a step-parent.
Subject matter jurisdiction and the right to
modify the original orders of Mississippi were
at issue based under the UCCJEA because
there was ongoing litigation in the original
state. The petition for adoption was dismissed.
In re D.C.M. Applying for Intrafamily Adoption, La. App. 22 Cir L. (2011).
The Kentucky case Williams v. Bittel, 299 S.W.
3d 284 (Ky. App 2009), the case upon which
petitioner's jurisdictional challenge was
based. The UCCJEA in effect in Kentucky exempted adoption from its provisions. Despite
the plain language of the UCCJEA excluding
adoptions, Kentucky retained exclusive, continuing jurisdiction over a custody case that
originated in its jurisdiction as long as Bittel,
the boyfriend of a deceased mother, remained
in Kentucky. Bittle and the decedent's sister
and brother-in-law, the Williamses argued
over the child which was born in Kentucky.
Williams were the designated primary residential custodians with liberal visitation to
Bittel. The Williams moved to Georgia where
they adopted the child. The adopted was vacated due to the UCCJEA.

14
Respondent purports the case at bar is differentiated from the Williams v. Bittel case as described by
petitioner in his brief and concurs with his position
that the UCCJEA does not apply for reasons presented
in this brief. Had petitioner and respondent engaged in
forum shopping, which they did not do but for which
they were accused, and relocated with the children to
Utah or Kansas then filed for adoption, the different
interpretations of the application of the UCCJEA to
the adoption by those circuits would have resulted in
the finalization of the adoption and subsequent enjoyment of the stability of a home for the minor children
which they had enjoyed since infancy but for which
they have been denied by the erroneous orders of the
Kentucky judiciary.
♦

CONCLUSION
Certiorari should be granted based upon the foregoing, so the Court can resolve the conflict among the
circuits regarding the inconsistent interpretation of
the application of the UCCJEA during adoption proceedings, resolve the subsequent violations of federal
law, as well as the specific issues of the appearance of
judicial misconduct, failure of the Kentucky judiciary
to recognize petitioner's standing in this case, and

15
subsequent violation of his due process rights specific
within this case.
Respectfully submitted,
ROBBIN NELSON pro se
PO Box 159175
Nashville, TN 37215
615-509-5557
bnalnc@aol.com
Dated: September 25, 2020

